SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                            FEDERAL COMMUNICATIONS
COMMISSION




TABLE OF CONTENTS


I.            INTRODUCTION............................................................................. 2

II.           AUDITS ........................................................................................... 5

III.          INVESTIGATIONS ........................................................................ 12

IV.           MANAGEMENT AND ADMINISTRATION. . . . . . . . . . . . . . .                                  . . 15

V.            SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)
              OF THE INSPECTOR GENERAL ACT .......................................... 17


ATTACHMENTS

A.            TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COSTS 20

B.            TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE .................................... 21




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                                         PAGE 1
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION




INTRODUCTION
The Federal Communications Commission (FCC) is an independent regulatory agency
exercising authority delegated to it by Congress under the Communications Act of 1934 as
amended. The FCC is charged with regulating interstate and international communications by
radio, television, wire, satellite and cable. The FCC's jurisdiction covers the fifty states, the
District of Columbia, and U.S. possessions. The mandate of the FCC under the Communications
Act is to make available to all people of the United States a rapid, efficient, nationwide, and
worldwide wire and radio communication service. The FCC performs four major functions to
fulfill this charge:

        spectrum allocation;
        creating rules to promote fair competition and protect consumers where
        required by market conditions;
        authorization of service; and
        enforcement.

The Chairman and four Commissioners are appointed by the President and confirmed by the
Senate. Reed E. Hundt has been the Chairman of the FCC since November 1993. As of the time
of this report, the FCC has three sitting Commissioners; James H. Quello, Rachelle B. Chong,
and Susan P. Ness. The fourth Commission seat has not been filled since former Commissioner
Andrew C. Barrett left the Commission effective March 30, 1996. The majority of FCC
employees are located in Washington, DC. FCC field offices are located throughout the United
States.

On February 8, 1996, President Clinton signed into law the Telecommunications Act of 1996,
(Pub. L. No. 104-104). This signing of this Act represented the first major overhaul of
telecommunication law in almost 62 years. The Act is geared towards promoting competition,
reducing regulation, and encouraging the rapid development of new technologies. For example,
per the Chairman, "(T)he Act enabled local telephone companies to enter the video business, let
cable, wireless, and long distance companies into local telephony, established conditions for the
Bell telephone companies to enter long distance, and moved broadcasting from a business with a
1950's technology into the twenty-first century digital world." Over the six months covered by
this report, the Commission continued to work towards the development of the complex set of
rules necessary to implement this new law.

As identified in our previous semiannual report, the Chairman implemented the field office
restructuring plan which resulted in the closure of nine attended frequency monitoring stations

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 2
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                  FEDERAL COMMUNICATIONS
COMMISSION


and three additional monitoring sites located at FCC field offices. In place of these previously
manned stations, a national automated monitoring network is now controlled from an existing
facility in Columbia, Maryland. Nine of the 25 existing field offices as well as three of the six
regional offices were closed. Two technical staff members continue to be assigned as Resident
Agents in the nine locations in which field offices were closed. In the current reporting period,
Office of Inspector General (OIG) staff initiated activity towards the reinstitution of the Field
Inspection Program (FIP). The FIP was curtailed due to severe budgetary limitations imposed
on this office in fiscal years 1995 and 1996, as well as a determination that an inspection
program would be of limited use during a period of significant reorganization. In addition to a
traditional inspection methodology (e.g., verification of: time and attendance records; equipment
and supplies; motor vehicle maintenance; and imprest funds) a detailed inspection checklist will
be utilized to assess the impact of the reorganization on the Commission, other Federal and State
agencies and on our customers. The initial sites to be inspected in May, 1997, will be the
Tampa Field Office and Miami Resident Agent Office.

In conjunction with the reorganization, the National Call Center (NCC) was instituted. The NCC
is a clearinghouse for the thousands of inquiries made to the Commission by the public on a
monthly basis. Housed in the existing FCC facility located in Gettysburg, Pennsylvania, the
NCC uses the latest technology available to respond to queries in a timely manner. Eighty
percent of the times calls are answered within twenty seconds. The average time on hold will
reportedly be no more than ninety seconds. From inception in June, 1996, the volume of calls
received by the NCC has increased virtually every month. In March, 1997, the NCC received
approximately 35,000 calls. This figure is over double that of the calls received in December,
1996. The number one call received by the NCC relates to the practice of telephone
"slamming." Under this practice, complainants have their long distance phone service switched
without their authorization. To resolve the complaint, the caller are asked to:

        file a written complaint with the FCC's Common Carrier Bureau
        contact their local exchange carrier and place a "PIC freeze" on their
         account. This locks in the Primary Interexchange Carrier (PIC) of
         their choice and prevents an unauthorized change.
        be aware that they are responsible for any calls made after the slamming incident
         but only at the rate they would have been charged by the carrier of their choice.

Normal hours of NCC operation are Monday through Friday 8:00am to 4:30pm EST. The NCC
can be reached toll free by calling 1-888-CALL FCC (1-888-225-5322).




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                          PAGE 3
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                  FEDERAL COMMUNICATIONS
COMMISSION


The Commission continues to auction spectrum as authorized by the U.S. Congress in the
Omnibus Budget Reconciliation Act of 1993. As of the date of this semiannual report, the
revenues had risen to over $23 billion dollars. The OIG continues to place significant emphasis
on evaluating and testing the security and reliability of automated systems dedicated to the
successful conduct of all phases of the spectrum auctions.

The Office of Inspector General has dedicated itself to assisting the Commission as it continues
to improve its efficiency and effectiveness. The Inspector General reports directly to the
Chairman. The OIG is located in Room 752 in the FCC headquarters building at 1919 M Street,
N.W., Washington, D.C. 20554. The office is staffed by the Inspector General, Mr. H. Walker
Feaster III and six staff members. Mr. Paul Brachfeld serves as The Assistant Inspector General
for Audits and Mr. Edward W. Hosken Jr. serves as the Assistant Inspector General for
Investigations.

This report includes the major accomplishments and general activities of the OIG during the
period October 1, 1996, through March 31, 1996, in accordance with Section 5 of the Inspector
General Act of 1978, as amended 5 U.S.C. App. 3, § 5.




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                          PAGE 4
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




AUDITS

OVERVIEW
During the reporting period, the Office of Inspector General (OIG) issued five Audit Reports,
one "Flash Report" and, one Special Review Report.

As the Chairman stated before the United States Conference of Mayors on January 18, 1997,
"The FCC is, I suppose, the single federal agency with the largest role in the communications
revolution. Our jurisdiction covers all five lanes of the information highway: broadcast, cable,
satellite, telephone and wireless." As the Commission focuses on maximizing the efficient use
of the public information highway, the OIG continues to work towards ensuring the integrity and
data reliability of our own internal information highway, the FCC network.
During this reporting period, we reviewed the security over remote dial-in access to the FCC
network. Issues identified were addressed expeditiously so as to mitigate the potential of
unauthorized access to sensitive data and interruption in network service. In the next reporting
period, the OIG will continue to focus efforts towards addressing ever emerging risks which
manifest themselves in this, the information age.

The OIG also continues to dedicate resources towards the performance of contract audit work.
In a climate of maximizing service and deliverables to our users while downsizing the size of the
Federal government work force, increasingly functions are being contracted out to the private
sector. It is thus ever more vital to ensure that the government is obtaining the required
deliverables in a timely and efficient manner and at a reasonable and supportable cost. In this
reporting period, the OIG identified significant issues which have resulted in a partial remittance
to the government to date of $89,549.96 of a total of $160,545 in questioned costs by one
vendor. Also, as a result of audit work performed by this office a contractor remitted to the
government of $195,416.88 for the labor charges claimed by the subcontractor for March and
April, 1996 pending results of our ongoing investigation of a subcontractor to the prime. The
OIG also identified that a contract employee utilized an FCC provided cellular telephone in
making personal and thus inappropriate calls at the expense of the FCC in the amount of
$1,233.22.

In addition to the detailed reports that were issued during this reporting period, questioned costs
of $1.78 million dollars identified by the OIG in the Report on Audit of Proposal for Initial
Pricing Under RFP No. 96-37 (OIG 96-11), dated September 30, 1996 were sustained by the

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                            PAGE 5
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


Chief, Acquisitions Branch. OIG auditors met with Acquisition Branch officials during this
reporting period and provided expertise prior to and during the negotiation process.

OIG auditors also continued to provide significant input towards the successful discharge of
investigative case activity which resided within this office. Audit staff is working as a part of a
multi-disciplinary team with the Assistant Inspector General for Investigations, towards
addressing potential criminal and ethical violations of the law.

Audit reports can generally be obtained via the internet at the following address www.fcc.gov.
However, special review and audit reports which contain sensitive or proprietary information
will be restricted to specific individuals and organizations with a need to know.


                       SIGNIFICANT AUDIT ACTIVITY


1.     Report on the Audit of Network Remote Dial-In Security (OIG 96-7)

The objective of the audit was to evaluate the security posture of the remote dial-in capability
provided by the centralized modem pool and, as needed, define an enhanced posture. An
additional objective was the identification of unknown dial-up entry ports supporting stand-alone
modem access (i.e., "rogue" modems), an assessment of the security of those ports, and the
identification of alternatives for securing those ports.

The Commission established access to the network through remote dial-in connectivity. The
dial-in capability allows FCC users to access the network from remote locations using laptop
computers or stand-alone personal computers. Although this capability can produce a significant
productivity gain, it also presents some difficult and complex security challenges.

During our review, we determined that the Commission's network was vulnerable to compromise
via remote dial-in. Although the initial objective of the review was an assessment of modem
pool security, the OIG identified that the primary risk to the network resulted from unknown
entry ports and "rogue" modems. In fact, during testing, the OIG was able to gain access to the
network through a "rogue" modem and compromise a number of components (see picture below
- only in hardcopy report).

Release of the detailed report was restricted to only those parties with a need to know. The
report contained three recommendations for which concurrence was received by the Managing
Director. In fact, the Office of the Managing Director took significant steps to address several of
the conditions identified by the OIG while fieldwork was still in progress. This prompt

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                             PAGE 6
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION


attentiveness to address systemic vulnerabilities speaks well to the cooperation between the OIG
and Managing Director and his staff.

2.     Flash Report on Vulnerabilities Identified During Our Review of Remote
       Dial-In Security (No OIG Audit Number Assigned)

During the conduct of a special review of the FCC remote dial-in (OIG 96-7) a significant
vulnerability to network continuity was identified by the OIG. Because of the significance of the
finding, and the potential impact on the Commission, the OIG issued a "Flash report" to the
Managing Director. This vehicle was used in order to expedite appropriate corrective action.


3.     Report on Follow-Up Audit of Contractor labor Related Policies, Procedures,
       Practices (OIG 96-08)

Auditors performed a labor floorcheck of a prime auction vendor and their subcontractor
working at the FCC's 2 Massachusetts Avenue and 2025 M Street N.W. locations. The audit
disclosed significant deficiencies which may affect the reliability the FCC can place on the
contractor and subcontractor's timekeeping systems and resulting labor charges to the
government.

Auditors identified that the employees of the prime vendor interviewed at the auction site did not
complete their timesheets on a daily basis. When interviewed, the employees maintained that
they kept separate daily time records, which they subsequently posted to weekly timesheets at
weeks end. Even though employees kept separate informal daily timesheet entries, this
methodology was in violation of the contractors internal control requirements. Informal records
can be more readily manipulated than timesheets that are completed on a daily basis. The
contractor concurred with the audit finding and implemented the audit recommendation which
will significantly increase the internal controls the vendor maintains over its labor timekeeping
system.

A significant deficiency was identified in the prime vendors administration of labor hours
charged to the FCC by a subcontractor to the prime. Based upon subcontractor employee
interviews and review of related billed timesheets, the OIG determined that the subcontractor's
labor timekeeping internal control system contained significant inadequacies and weaknesses
which are listed below.

z      The President of the company consistently failed to enter his start and end
       times on his daily time sheets. Both he and his employees did not clock in
       nor out to document their hours spent working within the FCC.

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 7
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION




z      Employees did not record their billable hours on a daily basis.

z      Timesheets were not maintained as controllable documents (i.e., sequentially
       numbered with restricted availability). In fact, employees maintained their
       timesheets as WordPerfect documents at their respective computer stations
       (FCC owned computers). This unrestricted access to enter, correct or alter
       timesheets with no audit trail to document corrections, authorizations, and approvals
       severely impaired any reliance the prime or the government could place on
       hours charged under this contract by subcontract employees.

z      Subcontract employees had no written internal timekeeping policies and procedures
       in their possession and were not trained nor instructed on the importance of
       proper timekeeping.

OIG auditors briefed the prime vendor on the results of our labor floorcheck. Based upon this
briefing, the prime was made aware that the OIG was investigating potential labor mischarging
by the subcontractor. In response to this, the prime acted to withhold payment of invoices to
their subcontractor for the period of April through May, 1996. The prime contractor also issued
a check to the FCC in the amount of $195,416.88 for the labor charges claimed by the
subcontractor for March and April, 1996.

The Chief, Acquisitions Branch, was briefed in detail on the issues identified by the OIG
auditors. In response, a requirement was instituted for contract employees working on any task
orders under programming services Time and Material (T&M) contracts to clock in and out.

It is noted that the subcontractor was subsequently removed from the contract. The President of
the company is currently the subject of an investigation being jointly worked by the Federal
Bureau of Investigation (FBI) and staff assigned to this office.


4.     Report on Costs Claimed Under FCC Contract No. 94-12 (OIG 96-10)

An audit was performed of costs claimed under an FCC Time and Materials (T&M) contract by
an 8(a) vendor. The purpose of the audit was to determine allowability of the costs claimed
under the contract from May 3, 1994 through April 13, 1995. The contractor provided financial
advisory and auction services to the FCC's Wireless Telecommunications Bureau, Auctions
Division, for marketing and awarding certain federal licenses.

The auditors questioned $160,545 of the $5,375,643 claimed by TWI under the contract.

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                          PAGE 8
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


Because the contract was awarded as a T&M contract, direct labor and indirect rates (fringe
benefits, overhead, and General & Administrative expenses) were fixed and not subject to audit.
 The bulk of the $160,545 questioned related to costs associated with the leasing of computer
equipment by the prime vendor from a subcontractor. The balance of questioned costs was
composed of incorrect billings and overstatements of direct expenses incurred and billed by the
prime contractor.

To date, the vendor has remitted $89,549.96 of the questioned costs to the U.S. Government.
The balance of the questioned costs, $70,995.16 was contested by the vendor. The FCC is
withholding action at this time pending the results of an ongoing joint investigation being
conducted between the FCC OIG, U.S. Attorney's Office for the District of Columbia and
Federal Bureau of Investigations.


5.     Report on the Audit of Imprest Funds (OIG 96-4)

The objective of this audit was to determine whether the FCC Headquarters imprest fund was
being administered in compliance with the Treasury Financial Manual (TFM), the Department of
the Treasury "Manual of Procedures and Instructions for Cashiers" and applicable FCC
instructions. The audit was designed to ensure that all funds were properly accounted for; the
amount of the fund was not in excess of cash requirements; the cashier and alternates were
following procedures that adequately protect the fund from loss or misuse; and, the cashier and
alternates were not making unauthorized use of the funds.

The auditors identified that the fund was in an out of balance condition. A shortage of $300
represented the net amount of two non related transactions processed erroneously in a prior fiscal
year. There was no evidence to suggest that this condition resulted from fraudulent activity on
the part of the cashier or any other FCC employee. The Managing Director concurred with the
audit finding and stated that his office would "take all necessary action to bring the fund back to
the proper balance."

The Treasury "Manual of Procedures and Instructions for Cashiers," Section 4: Safekeeping
Facilities For Cash, states that "Separate cash boxes or safe drawers must be provided for
alternates and subcashiers. Cashiers of all classes must work from separate cash boxes or
drawers." The auditors found the Commission to be in non-compliance with this requirement.
The primary cashier and alternates were found to be operating out of one cash box. Management
immediately addressed this internal control weakness by obtaining individual cash boxes for the
cashiers.

A third audit finding was that disbursements were made which fell outside of the allowable

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                            PAGE 9
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                  FEDERAL COMMUNICATIONS
COMMISSION


parameters defined by the TFM, Treasury Manual and FCC Instructions. For example, 16
subvouchers were processed for payment for which individual expenses exceeded allowable
thresholds. It was noted that no instances of fraud or malfeasance were identified.
Noncompliance with the aforementioned requirements represented 8% of the total transactions in
the sample population. Management concurred with the recommendation that all questioned
subvouchers be reviewed and appropriate measures taken to ensure remittance is made to the
Government as appropriate.


6.     Audit of the Advisory Committee on Advanced Television Services (OIG 97-1)

At the request of the Advisory Committee on Advanced Television Services (the Committee),
the Office of Inspector General (OIG) conducted a close out audit of the Committee's checking
account. The Committee was empaneled by the FCC on October 1, 1987, to develop
recommended "policies, standards, and regulations that would facilitate the orderly and timely
introduction of advanced television services in the United States."

The audit was performed by the OIG in order to provide an independent assessment as to the
integrity of Committee funds. Audit emphasis was placed on evaluating compliance with
internal controls for handling deposits and ensuring that all disbursements were valid and
supportable. All cash receipts, bank charges and disbursements from the period of December 1,
1994 through November 15, 1996 were examined and traced back to monthly bank statements
and journals maintained by the bookkeeper. The audit identified that the account was formally
closed on November 15, 1996. Since the last audit performed by this office (OIG Report No. 95-
2 dated December 19, 1994), all deposits to the account and disbursements were identified as
appropriate and supportable by adequate documentation.


7.Special Review Report of Contractor Use of Cellular Phone (OIG 96-5)

       The report was issued October 3, 1996

On August 15, 1996, the OIG issued Audit Report No. 96-2 entitled "Report on Cellular
Telephone Utilization." During the conduct of audit fieldwork, the auditors identified that the
FCC had been billed over a three month period by Bell Atlantic Nynex Mobile for an individual
who was not included in the FCC employee listing. Further analysis disclosed that the individual
was assigned to the FCC as a contract employee. Our review of the applicable contract terms
identified that no requirement nor contractual basis existed to equip the subject contract
employee with a pager or cellular phone.


_________________________________________________________________
October 1, 1996 - March 31, 1997                                                         PAGE 10
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


OIG auditors reviewed the contractors cellular phone bills for the period February through April,
1996. During this three month period a total of $2,852.21 was billed to the Commission.
Auditors questioned $1,448.55 of outgoing calls which were placed to non-FCC exchanges. The
listing was provided to the contract employee who indicated that $1,233.22 of the questioned
amount pertained to personal, non-business related phone calls.

To address the findings contained in the Special Review Report, the auditors developed two
audit recommendations. The OIG recommended that the Managing Director take appropriate
administrative action and that he refer the matter to the Debt Collection Officer to facilitate
collection of the questioned cost of $1,233.22. A second recommendation was developed to
mitigate the potential for recurrence of this scenario. The Managing Director concurred with
both recommendations. The basis for collecting the questioned amount of $1,233.22 was
referred by the Debt Collection Officer to the Office of General Counsel (OGC). Based upon a
determination by OGC that the agency "relied on an unpublished system of records," a
determination was made not to pursue collection action against the contractor nor her employer.

Audit Report Status Update

1.     Report on Audit of Proposal for Initial Pricing Under RFP No. 96-37 (OIG 96-11)

       The report was issued on September 30, 1996

As requested by the Office of the Managing Director, Acquisitions Branch, an audit was
conducted of a Time and Material, Indefinite Delivery and Quantity (T&M, IDIQ) pricing
proposal submitted to the FCC by a vendor. The objective of the audit was to determine and
report on whether the proposed direct labor rates are acceptable as a basis to negotiate a fair and
reasonable contract price.

The auditors questioned direct labor rates proposed for each labor category proposed in the base
year and four option years. Of the total direct labor costs (based upon direct labor rates
multiplied by estimated direct labor hours) proposed of approximately $7.7 million dollars, the
auditors questioned a total of $1,780,646.

The Contracting Officer used the audit report as a basis of negotiation with the proposed vendor.
All amounts questioned were sustained in the course of contract negotiations.




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                            PAGE 11
SEMIANNUAL REPORT        OF THE    INSPECTOR GENERAL                                            FEDERAL COMMUNICATIONS
COMMISSION



INVESTIGATIONS

OVERVIEW
Investigative matters pursued by this office are generally initiated as a result of allegations
received from parties external to this office or matters referred by the Director of Audits.
Referrals are based upon findings of potential fraud, waste, abuse, corruption, or mismanage-
ment by FCC employees, contractors, and/or subcontractors. Upon receipt of an allegation of an
administrative or criminal violation, the OIG usually conducts a preliminary inquiry to determine
if an investigation is warranted. Investigations may involve possible violations of regulations
regarding employee responsibilities and conduct, Federal criminal law, or other regulations and
statutes pertaining to the activities of the Commission. Investigative findings may lead to crimi-
nal or civil prosecution, or administrative action.

The OIG also receives complaints from the general public, both private citizens and commercial
enterprises, about the manner in which the FCC executes its program and oversight
responsibilities. These complaints are examined to determine whether there is any allegation of
employee wrongdoing or that the “process” was not followed or is ineffective. If none of the
enumerated factors are present, then the complaint is referred to the appropriate bureau for
response directly to the complainant with a copy of the response provided to the Inspector
General.

                                               INVESTIGATIVE ACTIVITY

Cases pending as of March 31, 1996                    .......................................               4

Plus: New cases .........................................................................            +21

Minus: Cases closed ....................................................................              -16

Cases pending as of September 30, 1996 ......................................                               9




                                        INVESTIGATIVE CASE SUMMARIES

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                                                         PAGE 12
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




During this reporting period, OIG investigative activity continued to focus on a matter first
referred to the Department of Justice on March 5, 1996. The Inspector General, Director of
Investigations, and OIG audit staff have continued to work with agents of the Federal Bureau of
Investigation (FBI), the U.S. Attorney's Office for the District of Columbia, and a grand jury.
Federal Rule of Criminal Procedure 6 precludes any further discussion pertaining to this
investigation.

Another case remaining open from the last report relates to an investigation referred to the Public
Integrity Section, Criminal Division, Department of Justice for prosecution of a potential
violation of 18 U.S.C. § 207(a)(2), post employment restrictions. This matter has not been
brought to closure as of the conclusion of this reporting period.

Opened this reporting period and remaining open.

Two of the cases opened this reporting period have been referred to the FBI. One is open
pending the development of further evidence by this office. No more details can be presented
since the target is unaware of our interest. In the other case, which involves possibly illegal
attempts to manipulate Commission decisions, the FBI is actively investigating while this office
stands ready to assist.

Employees are involved in three of the open cases. In one an employee is under suspicion of
misusing government property. In the other two, the employees have alleged that the FCC
through its supervisors has not followed established procedures. One case involves selection to a
higher grade and the other involves a performance appraisal.

Another pending case involves a complaint by a citizen that an improper ex parte contact had
been made in a restricted case and that this improperly affected the decision maker. The second
“outside” complaint involves an allegation that a field office has been unresponsive.

Opened and closed this reporting period.

The largest number of cases closed this reporting period (12) involve complaints from the public
regarding the performance or non-performance of official functions by headquarters and field
office staff. The substantive issues ranged from failing to enforce Emergency Broadcast System
rules to the improper cancellation of licenses and failure to enforce the obscenity standards.

Two complaints from the public involved the area of ex parte submissions contrary to FCC
rules. There were admittedly ex parte communications made, however, neither was found to
have been done intentionally to obtain a specific outcome. Further, neither affected the integrity

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 13
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION


of the process or outcome.

The last two cases closed involved potential employee misconduct. The first appeared to be the
improper use of official mail for unofficial business. However, investigation determined the
mailings were in support of official business. The second case involved an attempt to break into
a computer system. This investigation was closed due to the inability to develop any investiga-
tive leads after learning that a power failure compromised the facility's security system and may
have even caused the software program to indicate an attempted login on the computer in
question.



                                          HOTLINE CALLS

During this reporting period there were 73 calls to the published hotline number (202) 418-0473.
These calls can be divided into 7 broad categories:

       1.   Calls seeking information                            20
       2.   Calls complaining about interference                 3
       3.   Calls complaining about local cable provider          3
       4.   Calls complaining about fraud/scams                  4
       5.   Calls complaining about phone service/slamming/bills 16
       6.   Calls in reference to complaint against FCC employee 1
       7.   Calls -- miscellaneous                               26




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                          PAGE 14
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




MANAGEMENT AND ADMINISTRATION
During the six-month reporting period covered by this report, the Inspector General has
continued in his efforts to focus the work of this office towards addressing the needs of the
Agency. The FCC is an agency that has fully embraced the concept that we as a nation are now
in the midst of an information age. As the agency that the Chairman has defined as "the single
federal agency with the largest role in the communications revolution," the FCC has rapidly
embraced technology as a tool to address an ever increasing workload in a time of constrained
financial and physical resources.

In the wake of the Commissions rapid deployment of high level technology, the OIG has
worked closely with management to maximize the programming and hardware deliverables we
receive from contractors while ensuring the integrity and capacity of automated systems
employed by the Commission. The OIG has worked aggressively with agency personnel to
provide the highest level of assurance that FCC automated systems are protected from data loss
and unauthorized access. In the coming months we will continue to focus upon this objective
and serve as both an up-front partner, and proactive reference tool in the design, procurement
and implementation of new systems within the automated architecture of the Commission.

The procurement and related costs associated with the customization and implementation of
automated systems is significant. The OIG has work successfully to forge an extremely
constructive relationship with the Office of the Managing Director to provide the Acquisitions
Branch full contract audit support services to include the performance of pre-award, post-award
and contract close-out audits. As warranted, the OIG also provides the Acquisitions Branch
investigative support to address issues such as defective pricing and the staffing by contractors of
employees who do not meet the skill level requirements defined in the contract. Through the
performance of such work, the OIG can make a positive impact upon agency operations and
assist management in getting the best deliverables possible at the most economical cost to the
taxpayer.

OIG staff have been working towards the reinstatement of the Field Inspection Program (FIP).
This program, will become an ongoing process by which an independent entity within the FCC
will traveled to field offices and resident agent offices to perform a comprehensive inspection.
The inspection team will complete a detailed checklist, developed to assess compliance with
Federal government and internal FCC rules and regulations. The team will conduct interviews
with FCC staff and persons/organizations serviced by the field (to include Federal and State
agencies and entities) to obtain feedback on operational effectiveness and efficiency and identify
impediments which may exist to the realization of optimal performance. The FIP also searches

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 15
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


for best practices which may be transportable to other field locations.

The Inspector General was the subject of a peer review in this reporting period. Written results
of the peer review have not been received as of the drafting of this report. However, comments
received at the exit conference were favorable.




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 16
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




SPECIFIC REPORTING REQUIREMENTS OF
SECTION 5(a) OF THE INSPECTOR GENERAL ACT
        The following summarizes the Office of Inspector General response to the twelve
specific reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978, as
amended.

1. A description of significant problems, abuses, and deficiencies relating to the administration
of programs and operations of such establishment disclosed by such activities during the
reporting period.

       No such problems, abuses, or deficiencies were disclosed during the reporting period.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abuses, or deficiencies identified pursuant
to paragraph (1).

       No recommendations were made. See the response to paragraph (1).

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not been completed.

       No significant recommendations remain outstanding.

4. A summary of matters referred to prosecutive authorities and the prosecutions and
convictions which have resulted.

On August 29, 1996, a matter pertaining to potential criminal activity related to the licensing of
four radio stations in Vero Beach, Florida, was referred to the FBI. The investigation remains in
an open status at this date.

A second matter was referred to the U.S. Department of Justice in the prior reporting period.
The investigation remains in an open status. Specific issues related to this matter will be
addressed in this forum in subsequent reporting periods as warranted.

An investigation which was opened during a previous reporting period and referred to the U.S.
Department of Justice pursuant to section 4(d) of the Inspector General Act remains in an open
status. The investigation involves a potential violation of post-employment restriction of 18

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 17
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


U.S.C. § 207 (a) (2).


5.     A summary of each report made to the head of the establishment under section (6)(b)(2)
during the reporting period.

        No report was made to the Chairman of the FCC under section (6)(b)(2) during the
reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the Office
during the reporting period, and for each audit report, where applicable, the total dollar value
of questioned costs (including a separate category for the dollar value of unsupported costs) and
the dollar value of recommendations that funds be put to better use.

       Each audit report issued during the reporting period is listed according to subject matter
and described in part III, above.

7. A summary of each particularly significant report.

       Each audit report issued during the reporting period is summarized in part III, above.

8. Statistical tables showing the total number of audit reports with questioned costs and the total
dollar value of questioned costs.

       The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations that funds
be put to better use and the dollar value of such recommendations.

       The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the reporting period for
which no management decision has been made by the end of the reporting period (including the
date and title of each such report), an explanation of the reasons such management decision has
not been made, and a statement concerning the desired timetable for achieving a management
decision on each such report.

       No management decisions fall within this category.

11. A description and explanation of the reasons for any significant revised management

_________________________________________________________________
October 1, 1996 - March 31, 1997                                                           PAGE 18
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


decision made during the reporting period.

       No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

       No management decisions fall within this category.




_________________________________________________________________
October 1, 1996 - March 31, 1997                                                      PAGE 19
